FDIC OIG Press Release
[ The Following news release was posted in the online publication of the Clarion-Ledger (MS), March 27, 2009. ]
NEWS RELEASE
McComb attorney disbarred for fraud
Jimmie E. Gates
jgates@clarionledger. com
A McComb lawyer who helped a client receive more than $14.5 million in fraudulent bank loans will
never be able to practice law again.
Dwayne Deer, 47, who pleaded guilty last year in federal court in Jackson to conspiracy to commit
bank fraud, gave notice in November that he would give up his law license.
On Thursday, the Mississippi Supreme Court permanently disbarred Deer, who was admitted to the
Mississippi Bar in 1996. His practice focused on personal injury, Social Security Disability and
worker's compensation cases.
His disbarment involved a separate case connected to James Todd Phillips, his co-defendant, in the
fraudulent loan proceeding.
In May, the Bar filed an informal complaint against Deer after a federal bankruptcy judge found Deer
breached his fiduciary duty as an escrow agent.
"It's irrevocable. He cannot reapply," Mississippi Bar general counsel Adam Kilgore said of Deer's
license.
The Bar complaint said Deer improperly disbursed a California man's $565,000 that had been placed
in Deer's escrow account for the purchase of an apartment complex.
A bankruptcy court judge had found that Deer gave money to Phillips before a warranty deed had
been prepared and delivered to the California man.
"Dwayne G. Deer shall, within 45 days following entry of this order, file an affidavit with this court
stating that all of his clients have been notified of his disbarment and his consequent inability to
practice law in Mississippi," the unanimous state Supreme Court order says.
Deer, whose residence is now listed in Biloxi, couldn't be reached for comment. His attorney, federal
public defender Dennis Joiner, is out of the office for the next two or three weeks.
In the indictment, Deer was accused of conspiring with others to submit false title opinions and other
title commitment information so Phillips could fraudulently obtain funding to purchase and redevelop
property throughout the state.
As a result of submitting the false information, Deer enabled Phillips to receive more than $14.5
million in fraudulent loans from more than 20 banks in Mississippi, according to the U.S. attorney's
office for the Southern District of Mississippi.
Phillips owned and operated Statewide Reality Holdings LLC and Todd Phillips Investments Inc. as
real estate enterprises. Deer operated his law practice in office space rented from Phillips, who was
Deer's principal client during the period of the conspiracy, according to the U.S. Attorney's Office.
Both are awaiting sentencing on fraud charges in U.S. District Court in Jackson
John Colette, one of Phillips' attorneys, said Thursday the sentencing of his client was delayed until
some matters are cleared up. He didn't go into details.
Last updated: 3/30/07